Memorandum from the Office of the Inspector General



June 30, 2011

Robert M. Deacy, Sr., LP 5D-C

FINAL REPORT – INSPECTION 2008-12283-07 – REVIEW OF THE ENVIRONMENTAL
SAMPLING AND MONITORING PLANS FOR THE KINGSTON ASH SPILL



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and/or actions taken, have been included in
the report. Please notify us when final action is complete.

The Office of the Inspector General (OIG) contracted with Marshall Miller & Associates,
Inc., to conduct this review. All work pertaining to this review was conducted by Marshall
Miller. The OIG relied on Marshall Miller’s processes and procedures for quality control in
the attached report. Information contained in this report may be subject to public
disclosure. Please advise us of any sensitive information in this report that you
recommend be withheld.

If you have any questions, please contact Deana D. Scoggins, Senior Auditor, at
(423) 785-4822 or Greg R. Stinson, Director, Inspections, at (865) 633-7367. We
appreciate the courtesy and cooperation received from your staff during this review.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

DDS:FAJ
Attachment
cc: See page 2
Robert M. Deacy, Sr.
Page 2
June 30, 2011



cc (Attachment):
      Robert J. Fisher, LP 3K-C
      Michael B. Fussell, WT 9B-K
      Kimberly S. Greene, WT 7B-K
      Peyton T. Hairston, Jr., WT 7B-K
      Tom Kilgore, WT 7B-K
      William R. McCollum, Jr., LP 6A-C
      Stephen H. McCracken, KFP 1T-KST
      Annette L. Moore, LP 3K-C
      Richard W. Moore, ET 4C-K
      Anda A. Ray, WT 11A-K
      Emily J. Reynolds, OCP 1L-NST
      John M. Thomas III, MR 6D-C
      Robert B. Wells, WT 9B-K
      Wendy Williams, WT 9B-K
      OIG File No. 2008-12283-07
                                      Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                   Kingston Fossil Plant
                                                            Tennessee Valley Authority - Office of the Inspector General
                                                          June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                • Page 1


TITLE PAGE
Title of Report

Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
Tennessee Valley Authority Kingston Fossil Plant
Harriman, Tennessee


Effective Date of Report

February 3, 2011


Qualified Persons

MARSHALL MILLER & ASSOCIATES, INC.




Timothy D. Grant, P.G.                                  Eric R. Powers, P.G.
Senior Project Manager                                  Senior Geologist
                                            Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                         Kingston Fossil Plant
                                                                  Tennessee Valley Authority - Office of the Inspector General
                                                                June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                      • Page 2


EXECUTIVE SUMMARY
   Marshall Miller & Associates, Inc. (Marshall Miller) was hired by the Office of Inspector
   General (OIG) to review the sampling and monitoring plans prepared by the Tennessee Valley
   Authority (TVA) for its Kingston Fossil Plant located in Harriman, Tennessee, following an
   ash release that occurred on December 22, 2008. Marshall Miller evaluated the adequacy and
   completeness of TVA’s environmental recovery plans to determine whether these plans provide
   comprehensive and effective measures to adequately monitor the potential short- and long-term
   impacts to human and ecological receptors. Because of the number of different sampling and
   monitoring programs, the review spanned a period of several months. The scope of the review
   included TVA’s environmental recovery plans available through June, 2010.                              In summary,
   Marshall Miller found no significant deficiencies in the plans or procedures used by TVA or its
   contractors in characterizing impacts resulting from the ash release or recovery efforts. It should
   be noted that the assessment of long-term impacts will be an ongoing process during and after
   the recovery effort.

   This report focuses on two key areas, data management and review of the environmental
   monitoring program. Specifically:

   •   The data management review focused on the Quality Assurance Project Plan and the
       Standard Operating Procedures.

   •   The review of the environmental monitoring program focused on TVA’s ongoing evaluation
       of different media including (1) air, (2) water (i.e., surface, raw, storm, and groundwater),
       (3) sediment, and (4) biological.    These media comprise important migration pathways,
       which could potentially expose human and/or ecological populations in the vicinity of the
       spill.

   To complete the review, Marshall Miller reviewed documentation, conducted interviews,
   performed a site walkover, and observed sampling activities. While Marshall Miller did not find
   any significant deficiencies, early in the recovery process some of the analytical results did not
   pass prescribed quality assurance/quality control standards, and the data were invalidated. When
                                         Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                      Kingston Fossil Plant
                                                               Tennessee Valley Authority - Office of the Inspector General
                                                             June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                   • Page 3

the deficiency was noted, TVA took appropriate steps to correct the situation, and it does not
appear that any decisions regarding the clean-up efforts were affected by the data quality.

Marshall Miller noted the following:

•    Bureau Veritas Laboratories used an incorrect analytical method for particulate monitoring
     from September 2009 to January 2010. This resulted in the Envionrmental Protection
     Agency invalidating the Particulate Matter (PM) data.

•    There has been limited research on how the ash and the metals associated with ash will
     affect the various organisms in the river system. Additional investigations by a variety of
     research organizations are underway, primarily in support of the River System Engineering
     Evaluation/Cost Assessment.

•    Data from air testing for metals and groundwater testing are not readily available to the
     public.

•    Due to ”legacy” contaminants in the sediment in the lower 1.8 miles of the Emory River
     (associated with activities at the Oak Ridge National Laboratory) and the difficulty in
     removing the ash without distributing existing “legacy” and native river sediments, some
     ash will remain in the river after dredging is complete.

Based on Marshall Miller’s review, TVA should consider the following recommendations:

•      TVA should ensure that Inter-Mountain Labs, the laboratory that is currently performing
       PM2.5 and PM10 air sampling and analyses, is reporting the correct analytical methods.

•      Research related to the composition of ash and the potential release of metals from the
       ash into the surrounding river system, which could be bioavailable and have potential
       affects to organisms, should continue. As sampling to date has been limited, research on
       how the ash affects benthic organisms should also be continued. Marshall Miller notes
       that the EE/CA for the river system is expected to address this issue.

•      TVA should consider making more comprehensive air testing results and evaluations of
       metals data available to the public.

•      TVA should consider working with the Tennessee Department of Environmental
       Conservation to provide the public with updated groundwater testing results and
       evaluations.

•      TVA should complete ongoing research designed to understand how river bottom
       sediments play a role in the overall ecology of the river system by propagating potential
       spill impacts through the food chain including fish, reptiles, mammals, birds and other
                                       Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                    Kingston Fossil Plant
                                                             Tennessee Valley Authority - Office of the Inspector General
                                                           June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                 • Page 4

       biota over the long term. It is Marshall Miller’s understanding that this research is
       ongoing through a collaborative effort between TVA and various research organizations.

•      TVA should continue to monitor for the four principal ash components of concern
       (arsenic, mercury, selenium, and thallium). With respect to selenium, TVA should
       continue to follow the guidance of the EPA as outlined in the August 18, 2009, Review of
       Potential Selenium Issues Following a Coal Ash Spill at the Tennessee Valley Authority
       Kingston Fossil Plant.



TVA management provided additional information on the findings and recommendations in this
report. For complete responses, please see Appendix A and Appendix B. Marshall Miller
incorporated comments into the report as appropriate and provided additional comments in
response to TVA management responses. For Marshall Miller’s complete response, please see
Appendix C.
                                                             Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                                          Kingston Fossil Plant
                                                                                   Tennessee Valley Authority - Office of the Inspector General
                                                                                 June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                                       • Page 5


TABLE OF CONTENTS
TITLE PAGE .............................................................................................. 1
EXECUTIVE SUMMARY............................................................................. 2
TABLE OF CONTENTS ............................................................................... 5
ITEM 1: INTRODUCTION AND BACKGROUND ..................................... 6
           1.1.       Q UALITY ASSURANCE / Q UALITY C ONTROL ..........................................................8
           1.2.       I NFORMATION/DATA M ANAGEMENT P LAN..........................................................10
ITEM 2:               REVIEW OF THE ENVIRONMENTAL MONITORING
                      PROGRAM ............................................................................. 11
           2.1.       AIR .........................................................................................................................11
           2.2.       SURFACE W ATER ...................................................................................................15
           2.3.       STORM W ATER ......................................................................................................18
           2.4.       SEDIMENT ..............................................................................................................20
           2.5.       G ROUNDWATER .....................................................................................................22
           2.6.       BIOLOGICAL ..........................................................................................................24
ITEM 3:               CONCLUSIONS & RECOMMENDATIONS .............................. 27


APPENDICES
MEMORANDUM DATED MARCH 3, 2011, FROM ROBERT M. DEACY
TO ROBERT MARTIN.......................................................................................................... APPENDIX A

MEMORANDUM DATED JUNE 27, 2011, FROM STEPHEN H. MCCRACKEN TO D.D.
SCOGGINS............................................................................................................................. APPENDIX B

MEMORANDUM DATED JUNE 29, 2011, FROM TIMOTHY D. GRANT TO
GREG STINSON.................................................................................................................... APPENDIX C
                                        Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                     Kingston Fossil Plant
                                                              Tennessee Valley Authority - Office of the Inspector General
                                                            June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                  • Page 6


Item 1:       INTRODUCTION AND BACKGROUND
In response to an ash release that occurred on December 22, 2008, at the Kingston Fossil Plant
(KIF) located in Harriman, Tennessee, the Tennessee Valley Authority (TVA) enacted an
environmental sampling plan. Marshall Miller & Associates, Inc. (Marshall Miller) was
retained by TVA’s Office of the Inspector General (OIG) to evaluate the adequacy and
completeness of the TVA’s environmental recovery plans in response to the December 22, 2008,
ash release, which due to the number of different sampling and monitoring programs, the review
spanned a period of several months. The scope included environmental recovery plans available
through June, 2010. The intent of this review is to evaluate whether TVA’s ongoing response
and planning are providing comprehensive and effective measures to mitigate the short- and
long-term impacts from an estimated 5.4 million cubic yards of coal ash that spilled from the on-
site dredge cell into the nearby Emory, Clinch, and Tennessee Rivers and their tributaries. The
evaluation has included a review of relevant documentation related to sampling of the various
media, interviews with key team members from TVA and subcontractors overseeing the clean-
up, and observations of sampling and data collection procedures during site visits conducted on
November 18, 19, and 20, 2009. The evaluation focused on the following media:

       •      Air (fugitive dust originating from coal ash accumulations).

       •      Surface water and raw water intakes for nearby water treatment plants.

       •      Storm water (runoff from ash impacted areas and from the ash dewatering area).

       •      Sediment.

       •      Groundwater (including domestic water supply wells).

       •      Biological (biota).

       These media comprise important migration pathways, which have the potential to expose
human and ecological populations in the vicinity of the spill. The inherent instability and
mobility of coal ash contribute to its rapid dispersal throughout the environment, mandating the
need for a rapid response program that originally included measures to (1) identify residents
whose property was adversely affected by the spill and provide temporary housing for those most
                                          Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                       Kingston Fossil Plant
                                                                Tennessee Valley Authority - Office of the Inspector General
                                                              June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                    • Page 7

impacted by the spill and recovery efforts, (2) protect downstream drinking water intakes, (3)
alert the broader community regarding potential impacts to air and drinking water, (4) assess
immediate impacts to wildlife and wildlife habitat, (5) restore roads, railroads and other
infrastructure, (6) protect the ability of the KIF facility to continue providing electrical power to
the region, and (7) implement containment measures to contain and control as much of the
spilled material as possible.

       As initial abatement measures were implemented, TVA along with the Tennessee
Department of Environmental Control (TDEC), US Environmental Protection Agency
(EPA) and local government agencies jointly responded to the spill, in part, by providing
sampling and analyses of impacted media. While the common purpose of these efforts was to
protect public health from the immediate impact of substances found in the coal ash, it was
apparent that the longer-term response would require a more comprehensive program to assess
the size and scope of impacts resulting from the release. To this end, TVA is taking the lead in
developing an integrated plan, to address both short- and long-term impacts to human and
ecological populations. As of June 2010, TVA has prepared the Non-Time Critical Removal
Action Embayment/Dredge Cell Engineering Evaluation/Cost Analysis (EE/CA) report dated
January 15, 2010, and the Non-Time Critical Removal Action Embayment/Dredge Cell Action
Memorandum dated May 18, 2010, in support of the clean-up efforts for the Swan Pond
Embayment. A separate EE/CA will be prepared for the river systems. On May 11, 2009, TVA
entered into an Administrative Order and Agreement on Consent with EPA Region IV, which
directs all response activities under the Comprehensive Environment Response, Compensation,
and Liability Act (CERCLA). The Administrative Order and Agreement on Consent imposes
requirements for TVA to develop short- and long-term plans for mitigating off-site spill impacts
through a process of continued investigation, analysis, and evaluation to determine the extent of
affected media and to assess potential impacts to human and ecological receptors.                                     The
Administrative Order and Agreement on Consent also requires that TVA address the short- and
long-term management of the coal ash including TVA’s clean-up of ash from off-site areas and
final containment within the original confines of the KIF facility.
                                          Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                       Kingston Fossil Plant
                                                                Tennessee Valley Authority - Office of the Inspector General
                                                              June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                    • Page 8


1.1.   QUALITY ASSURANCE / QUALITY CONTROL
       From the outset, TVA was faced with gathering an enormous quantity of environmental
data in its effort to develop a rapid and effective clean-up strategy.                                 Consequently,
documentation and procedures for data collection and management during the first two to three
months (late December 2008 to mid-March 2009) of the post-spill period were developed
through adaptation in response to changing conditions as there was little or no precedent for
handling an ash spill of this magnitude. By March 2009, TVA was transitioning from an
emergency response action to a more measured recovery effort mandated by TDEC and EPA.
As a part of this process, numerous planning documents were prepared and submitted to the
overseeing regulatory agencies for review. Included in these was an overall Quality Assurance
Project Plan, which provided the overarching framework for managing how all of the data
collected by TVA and its staff and contractor were collected, analyzed, compiled and reported
throughout the recovery process.

       The site-wide Quality Assurance Project Plan calls for the preparation and
implementation of plans for specific activities associated with the recovery. One of these plans,
the Phase I Dredging Quality Assurance Project Plan, integrates the principles and requirements
of the overall project Quality Assurance Project Plan with an activity-specific plan. Sampling
and analysis activities undertaken to address specific data needs related to soil, surface water, air,
groundwater, sediment, and related media were bound by procedures outlined in the Quality
Assurance Project Plans and by specific Standard Operating Procedures all developed to meet
Data Quality Objectives defined in the planning documents.

       As a part of its review of TVA’s environmental documents and data, Marshall Miller
reviewed TVA’s Quality Assurance Project Plan and Standard Operating Procedures documents
for their content, completeness, and appropriateness. Although Marshall Miller found that most
of these documents were not approved, nor issued until many months after the spill, the overall
procedures for sample collection and analysis prior to that time were consistent with the goals of
the plans. In instances where sample collection and sample handling/analysis procedures were
deficient, it was evident that TVA made changes to the processes and/or contractors involved to
bring data into compliance with project Data Quality Objectives. Once the plans were in place,
                                         Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                      Kingston Fossil Plant
                                                               Tennessee Valley Authority - Office of the Inspector General
                                                             June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                   • Page 9

TVA’s data quality evaluation procedures determined that some of the quality assurance/quality
control (QA/QC) procedures and documentation in early analytical packages were deficient and
would therefore require reevaluation under the new protocols. In the reevaluation, much of this
data was invalidated due to unrecoverable deficiencies. TVA immediately retrieved from the
analytical laboratories all samples for which there was any retained portion and submitted those
for re-analysis by a laboratory that could adhere to the QA/QC requirements. All parameters for
which holding times were still valid were re-analyzed and the deficient data were replaced with
defensible results. Although this outcome resulted in the loss of some early data, it supports that
TVA’s QA/QC process is rigorous and capable of insuring that data used in monitoring the
ongoing recovery operations and long-term decision making is sound and meets the required
Data Quality Objectives.

        An important component of any environmental monitoring program is reliable data. As
such, TVA staff have conducted independent audits of laboratories and required a qualification
package to verify that the facilities are properly certified to provide analytical services. An in-
depth and detailed data validation process by a third party also serves to identify potential issues
associated with any of the procedures the laboratories are using. However, the method is not
fail-safe. During an audit of the air monitoring program by the EPA, it was noted that Bureau
Veritas Laboratories had used inadequate humidity controls for the measurement of PM2.5 and
PM10 analyses and the data was subsequently invalidated. More detail is provided in Section 2.1
of this report.

        In general, the laboratories were determined to be properly certified, and the rigorous
QA/QC procedures enable early identification of any deficiencies.                        When problems were
identified, TVA responded appropriately to rectify the situation.

        Per the Quality Assurance Project Plan, TVA’s contractors are also monitored by third-
party observers on a regular basis to insure proper field procedures are being conducted,
including proper sample collection, handling, labelling, equipment decontamination, and
shipping. Moreover, government agencies including TDEC and EPA also collect samples to be
analyzed for many or all of the same constituents as TVA’s contractors, providing a back-up
                                          Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                       Kingston Fossil Plant
                                                                Tennessee Valley Authority - Office of the Inspector General
                                                              June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                   • Page 10

check on quality. During Marshall Miller’s field visit in November 2009, Marshall Miller did
not find any deficiencies in procedures being utilized by TVA or its contractor staff. Marshall
Miller’s observations included sampling for air, surface water, wildlife, and operational wastes.

1.2.   INFORMATION/DATA MANAGEMENT PLAN
       Since TVA concluded its emergency response phase in early March 2009, the EPA’s
Administrative Order and Agreement on Consent required TVA to prepare and submit, among
other documents, an Information/Data Management Plan, which specifies how data from the
clean-up efforts are to be generated, validated, stored, and reported.

       During the site visit in November 2009, Marshall Miller interviewed key staff in charge
of administering the Data Management Plan. The TVA Technical Liaison/QA Manager briefed
Marshall Miller on procedures used in all aspects of TVA’s recovery sampling including how the
sample packages are generated, used in the field, submitted, and evaluated for completeness and
accuracy.   Based on this and an earlier interview with Environmental Standards, Inc.
personnel, TVA’s data manager contractor, Marshall Miller determined that the process
currently in use is extremely rigorous.       Environmental Standards’ Data Management Plan
involves many automated and human checks to ensure the sampling process and Data Quality
Objectives are designed to meet data goals. The goal of nearly all of Environmental Standards
procedures in support of this project is to review data to EPA’s National Functional Guidelines
for CERCLA sites. Environmental Standards also has a system in place that ensures that
samplers are equipped with the appropriate containers, which are pre-labelled and packaged by
the lab with appropriate preservation, submitted to the laboratory inside all applicable holding
times and shipped under proper chain of custody.                    Laboratory results are submitted to
Environmental Standards promptly and evaluated for completeness before the rigorous validation
process by a team of human reviewers is complete and the data are released as final. From
Marshall Miller’s observations in the field, these procedures were being adhered to, instilling
confidence that the data collected under these protocols is accurate and the process reflects a
high level of data management.
                                        Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                     Kingston Fossil Plant
                                                              Tennessee Valley Authority - Office of the Inspector General
                                                            June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                 • Page 11


Item 2:        REVIEW OF THE ENVIRONMENTAL MONITORING
               PROGRAM
       Marshall Miller was tasked with evaluating the adequacy of the environmental
monitoring program in place through second quarter 2010 to characterize the potential impacts to
the environment resulting from the KIF ash release. Summaries by media of the results of the
evaluation are provided in the subsequent sections.

2.1.   AIR
       During the emergency response, TVA deployed readily-available stationary industrial
hygiene-type monitors at several temporary monitoring stations around the perimeter of the site
and located a portable air monitoring trailer with Federal Reference Method samplers between
the ash ditch and remnant of the dredge cell. On December 28, 2008, TVA began deploying
contractors with portable industrial hygiene-type monitors in vehicles to obtain air quality data
throughout the community. The air monitoring trailer was removed in mid-January 2009 due to
site operations.

       TVA established six fixed site air monitoring stations (five locations targeting
community-based areas associated with and proximal to the released fly ash and one background
sample location). Initial sampling at these locations was performed on a 12-hour and 24-hour
frequency and analyzed for particulates less than 10 micrometers in diameter (PM10), total
suspended particulates, and other identified contaminants of potential concern including quartz
and 21 metals One station also analyzed for particulates less than 2.5 micrometers in diameter
(PM2.5). Of the 21 metals analyzed, 8 (arsenic, beryllium, cadmium, chromium, lead, selenium,
thallium, and vanadium) were selected for reporting based on either having been detected during
initial sampling or on a review of the Material Safety Data Sheet of fly ash. For long-term
monitoring, TVA had proposed reducing the metals analyzed to include only arsenic and
thallium. However, the EPA requested that TVA sample for aluminium, barium, beryllium,
cadmium, chromium, lead, manganese, mercury, selenium, and vanadium in order to match the
TDEC analyses.
                                         Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                      Kingston Fossil Plant
                                                               Tennessee Valley Authority - Office of the Inspector General
                                                             June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                  • Page 12

       TDEC and EPA also installed air monitoring equipment at TVA's fixed air monitoring
station PS07. The monitoring includes particulates (PM2.5 and PM10) via continuous monitors
and a high volume total suspended particulates sampler for metals analysis including aluminium,
arsenic, barium, beryllium, cadmium, chromium, lead, manganese, mercury, selenium, thallium,
and vanadium. PS07 is considered to be the location of greatest potential to detect ash spill-
related particulates, due to the direction of prevailing winds. As of June 2010, TVA was also
conducting mobile 24-hour real time monitoring to assess the air quality within the adjacent
community during which instantaneous measurements of PM10 are taken using portable aerosol
monitors.

       The EPA and TDEC conducted reviews of the initial plan for monitoring, the draft Air
Monitoring Plan developed in January, 2009, and the Quality Assurance Plan, and performed
subsequent site visits to monitor on-site air sampling techniques. Following these reviews, TVA
revised the draft Air Monitoring Plan, and submitted it for regulatory approval in June 2009.
TVA operated under the draft plan and its subsequent revisions until the final plan was approved
as an appendix to the Site Dust Control Plan in August, 2009, under which it would continue to
monitor air quality in the vicinity of fly ash release remediation in real time using the six fixed
air monitoring stations and mobile air monitoring instruments.

       The EPA review noted deficiencies per regulatory requirements as outlined in 40 CFR
Parts 50 and 51. In response, TVA made the following updates to its monitoring program:

       •       Installed a PM2.5 continuous monitor at PS07 and set an action level at 75 percent
               of the EPA’s National Ambient Air Quality Standard.

       •       Expanded the total suspended particulates, contaminants of potential concern, and
               metal analyses to match the analysis that TDEC performs at PS07 (aluminum,
               arsenic, barium, beryllium, cadmium, chromium, lead, manganese, mercury,
               selenium, thallium, and vanadium).

       •       Changed the method of collecting field blank samples.

       •       Implemented an electronic sample data collection system and started submitting
               data electronically to the EPA.

       •       Maintained spare parts for sampling equipment onsite.
                                           Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                        Kingston Fossil Plant
                                                                 Tennessee Valley Authority - Office of the Inspector General
                                                               June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                    • Page 13


       •       Implemented a data review program.

       A memo from Environmental Standards to TVA dated January 5, 2010, was recently
provided to Marshall Miller and indicates that Bureau Veritas reported a problem to TVA on
December 7, 2009, and that TVA and Environmental Standards personnel conducted an audit on
December 15, 2009.       In January 2010, the EPA conducted a subsequent audit of the air
monitoring program and found that Bureau Veritas, which had been performing PM2.5, PM10,
metals, and silica analyses of air samples at KIF since mid-September 2009, had been analyzing
the PM2.5 and PM10 data using an incorrect method; therefore, data was disqualified for the
period of September 16, 2009, through January 1, 2010. The disqualification was a result of
Bureau Veritas’s noncompliance with various 40 CFR methods (including inadequate static
control, inadequate temperature and humidity, inadequate blanks, and inadequate balance
readings) as well as its use of filter weighing methodology, a modified National Institute for
Occupational Safety and Health (NIOSH) Method 0600, that is not consistent with the EPA
methods specified in TVA’s Site Dust Control and Air Monitoring Plan. According to TVA,
most of the issues reported by the EPA were discovered by the TVA and Environmental
Standards auditors and reported to the EPA.

       Marshall Miller has reviewed EPA’s Memorandum Evaluation of the Perimeter Air
Monitoring Strategy and Identification of Corrective Actions at the TVA Kingston Fly Ash
Release Time-Critical Removal dated January 25, 2010, and TVA-OIG/Environmental
Standards’ Memorandum Summary of Observations During On-Site Visit to Bureau Veritas of
Novi, Michigan, and Associated Recommendations dated January 5, 2010.

       Marshall Miller determined that there is significant evidence that the disqualification of
Bureau Veritas’s data during the September 16, 2009, through January 1, 2010, was warranted.
Bureau Veritas did not follow prescribed preparation and QA/QC procedures. As noted in TVA’s
Dust Control and Air Monitoring Plan the use of EPA methods is required for PM2.5 and PM10
analysis. EPA methods differ significantly from those developed by NIOSH as EPA methods
address exposure levels found in ambient air and typically have longer sampling times.
Therefore, it is critical to use the correct methods.
                                        Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                     Kingston Fossil Plant
                                                              Tennessee Valley Authority - Office of the Inspector General
                                                            June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                 • Page 14

       Due to the considerably lengthy turnaround time for Bureau Veritas to provide data
deliverables, the first complete Bureau Veritas data were not received by Environmental
Standards until December 14, 2009, three months after the first samples were sent to Bureau
Veritas on September 16, 2009. During Marshall Miller’s initial review, this data were not yet
available for review. Beginning on January 20, 2010, TVA no longer uses Bureau Veritas for
PM2.5 and PM10 analysis; however, Bureau Veritas continued to analyze samples for metals
thorough March 24, 2010.

       Considering that mobile instantaneous PM10 readings, federal reference compliant PM2.5
Tapered Element Oscillating Microbalance readings at PS07, and laboratory silica and metals
analyses had not revealed any exceedances of the EPA’s National Ambient Air Quality
Standards through June 2010, and there are significant on-site dust suppression activities at the
site, it is Marshall Miller’s opinion that the air quality of the surrounding area was safe during
the periods of mid-September 2009 through mid-January 2010.

       Fixed-site PM10 and PM2.5 monitors have not, to date, revealed an exceedance of National
Ambient Air Quality Standards. Lab analyses of fixed-site samples have detected some metals at
very low levels, but these levels do not present health concerns. The only exceptions have been
several elevated mobile PM10 results that were associated with brush fires.

       The air monitoring plans reviewed by Marshall Miller appear to be detailed and
comprehensive and provide sufficient monitoring to protect the air quality of the surrounding
impacted area.   The Site Dust Control and Air Monitoring Plan, August 2009, effectively
addresses the comments and concerns of EPA and TDEC for continued monitoring.

       One limitation Marshall Miller experienced while reviewing air data was the difficulty of
finding publically available metal analyses data on the TVA, TDEC, and EPA Web sites. Data
for PM10 and PM2.5 are readily available; however, metals analyses results (with the exception of
arsenic) are not readily available to the public on the TVA and EPA Web sites. The EPA has
requested that TVA post the metals data on EPA’s Air Quality System database. But as of the
date of this report, that data was not available. Since January 2010, the TDEC Web site has
presented the metals analyses data from its sampling station.
                                        Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                     Kingston Fossil Plant
                                                              Tennessee Valley Authority - Office of the Inspector General
                                                            June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                 • Page 15


2.2.     SURFACE WATER
         Surface waters within the scope of this project include the lower Emory River, lower
Clinch River, upper Tennessee River, and the Watts Bar Reservoir, which encompasses portions
of these rivers. These rivers serve as raw water sources for drinking water supplies to several
local water utilities. As such, these waters are designated as domestic water supplies. It should
be noted that prior to the KIF ash release portions of the Emory, Clinch, and Tennessee Rivers
and the Watts Bar Reservoir on these rivers were listed on the TDEC 2008 303(d) List of
Impaired Waters due to the historical presence of one or more pollutants including
polychlorinated biphenyls (PCBs), chlordane, and mercury.

         TVA developed the Kingston Fossil Plant Fly Ash Pond Incident Environmental
Sampling Plan as a framework for actions in the short term following the incident.
Subsequently, TVA developed a Field Sampling Plan, Standard Operating Procedures, the site-
wide Quality Assurance Project Plan, and the Revised Surface Water Monitoring Plan for the
Emory, Clinch and Tennessee Rivers to guide recovery and long-term monitoring of the affected
sites.

         After the release, TDEC initiated sampling of public water intakes at the four closest
water utilities. Through June 2010, at the Kingston Water Treatment Plant (the closest public
water supply), TDEC had been testing twice weekly, and the City of Kingston was testing daily.
As of June 2010, no utility samples have exceeded drinking water maximum contaminant levels.
TDEC reportedly plans to continue routine monitoring of public water supplies throughout the
ash clean-up effort.

         Immediately after the release, TVA, TDEC, EPA, and other agencies commenced surface
water quality monitoring and field monitoring activities in the Emory, Clinch and Tennessee
Rivers. The sampling locations encompass approximately 14 miles of the local river system,
which include upstream, point-of-release, and downstream water sampling locations. Marshall
Miller determined that the scope and location of the sampling is comprehensive and well
conceived.
                                          Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                       Kingston Fossil Plant
                                                                Tennessee Valley Authority - Office of the Inspector General
                                                              June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                   • Page 16

          Surface water monitoring was initially conducted under the Revised Surface Water
Monitoring Plan for the Emory, Clinch and Tennessee River approved by TDEC and EPA on
August 26, 2009. The plan included the following:

          •       Routine surface water monitoring at 10 (or 11 based on a turbidity measurement
                  action level) fixed locations on the Emory, Clinch, and Tennessee Rivers
                  conducted by TVA two days a week, which complements TDEC’s sampling of
                  the same stations on two different weekdays. From January 2009, until approval
                  of the Revised Surface Water Monitoring Plan on August 26, 2009, TVA
                  collected samples from these locations three days per week.

          •       Continuous monitoring at two additional fixed locations on the Emory River and
                  three sites in the vicinity of KIF.

          •       Monitoring the KIF Stilling Pond National Pollutant Discharge Elimination
                  System (NPDES) permitted outfall at location KIF 001.

          •       Dredge plume monitoring performed daily during daylight hours of dredging
                  operations.

          Results of TVA’s sampling have indicated that increased levels of metals have occurred
in surface water immediately after the spill and after subsequent rainfall events. The four
principal ash components of concern are arsenic, mercury, selenium, and thallium. Through the
end of June 2009, TVA’s analyses found that dissolved arsenic in four surface water samples
from the Emory River exceeded the Tennessee Domestic Water Supply criteria of 0.01
milligrams per liter (mg/L); total arsenic exceeded the same criteria five times. All of these
exceedances were in samples collected in the vicinity of the December 22, 2008, ash spill
immediately after the occurrence of the ash spill and in early January 2009 (after a heavy rainfall
event).       No other analytes found in the Emory River exceeded their respective Tennessee
Domestic Water Supply criteria. TDEC reported similar results with arsenic being its only
exceedance of the Tennessee Domestic Water Supply criteria through May 2009 in samples
collected immediately adjacent to the ash spill in the Emory River. Through June 2009, TVA
reported exceedances of the Tennessee Domestic Water Supply criteria for arsenic three times at
different locations in the Clinch River, which again coincided with heavy rainfall events.

          In a March 2009 surface water assessment, TDEC concluded that no Tennessee Water
Quality Criteria were exceeded at any location for antimony, chromium, copper, nickel,
                                         Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                      Kingston Fossil Plant
                                                               Tennessee Valley Authority - Office of the Inspector General
                                                             June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                  • Page 17

selenium, or zinc. However, other metals including aluminium, cadmium, iron, and lead were
each measured above the Tennessee Water Quality Criteria for the protection of fish and aquatic
life at least once in January 2009. Most of these water quality exceedances were from a
sampling location near the ash spill.

       Between March 3, 2009, and June 2010, TVA conducted daily monitoring and sampling
of dredge plumes and those results indicate at least one exceedance of water quality standards for
arsenic, antimony, beryllium, lead, nickel, and thallium under the Tennessee Domestic Water
Supply criteria and arsenic, dissolved copper and selenium under Tennessee fish and aquatic life
criteria. Samples collected from downstream fixed stations have not detected exceedances for
either arsenic or selenium since the heavy rainfall event in January 2009. A surface water data
summary report dated May 6, 2010, which graphically presented the maximum value for total
arsenic concentrations, indicated that the Tennessee Domestic Water Supply criteria was
exceeded once in mid-January 2010 and again in mid-February 2010 in the Emory River.
Additionally, as noted previously, TDEC had reported exceedances of the Tennessee Domestic
Water Supply for arsenic in the Clinch River after rainfall events.

       TVA will continue surface water monitoring as a component of several active plans
including the Kingston Fossil Plant Fly Ash Pond Incident Environmental Sampling Plan, Phase
I Emory River Dredging Plan, the Sampling Plan for Phase I Dredging Operations and the
Revised Surface Water Monitoring Plan for the Emory, Clinch and Tennessee Rivers. Surface
water monitoring will be conducted throughout the ash spill clean-up effort.

       Marshall Miller’s review of TVA’s written plans finds them to be appropriate to meet
data quality objectives and regulatory requirements. The scope of the study area for surface
water sampling and the selection of monitoring sites are comprehensive. The current plans such
as the Surface Water Monitoring Plan and Standard Operating Procedure for Surface Water
Monitoring are comprehensive and utilize methodology, test methods, and guidance approved by
state and federal regulatory agencies. The stated objectives of the Surface Water Monitoring
Plan should be achievable. TVA’s written plans, such as the Corrective Action Plan, Surface
                                        Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                     Kingston Fossil Plant
                                                              Tennessee Valley Authority - Office of the Inspector General
                                                            June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                 • Page 18

Water Monitoring Plan along with the Field Sampling Plan and Quality Assurance Project Plan,
appear to be appropriate to meet data quality objectives and regulatory requirements.

       Marshall Miller observed surface water sampling procedures on November 22, 2009, and
samples were collected in accordance with the applicable Standard Operating Procedures and
monitoring plans. Both surface water monitoring data and public water intake analysis data are
readily obtainable on publically accessible Web sites.

2.3.   STORM WATER
       The control of storm water flow from the ash storage and handling areas is important for
minimizing the potential for continued ash migration, soil/sediment erosion, and related water
quality impacts to the Tennessee River water system. The purpose of Marshall Miller’s storm
water management evaluation was to identify and review available TVA documents for evidence
that an adequate systematic program has been developed and is being implemented in order to
minimize the potential ongoing water quality impacts caused by unmanaged storm water runoff.

       Key documents related to storm water management reviewed by Marshall Miller
included, but are not limited to, the following: (1) the Corrective Action Plan, (2) the Site
Stormwater Management Plan, (3) Stormwater Pollution Prevention Plans, (4) a Surface Water
Monitoring Plan and implementation reports, and (5) various periodic work summaries and
inspection reports and documentation. Other documents related to water quality management
and monitoring included the NPDES Permit No. TNR0005452; Tennessee Stormwater Multi-
Sector Permit for Industrial Activities NPDES Permit No. TNR050000, and Tennessee General
NPDES Permit for Discharges of Stormwater Associated with Construction Activities Permit No.
TNR100000.

       The Site Stormwater Management Plan/Stormwater Pollution Prevention Plan
documents were prepared to comply with the requirements of the construction NPDES permit.
The Stormwater Pollution Prevention Plans appear to present a cohesive approach to controlling
storm run-on/runoff at the ash management areas, as well as appear to meet the NPDES
requirements for construction activities. Three versions of the Stormwater Pollution Prevention
                                        Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                     Kingston Fossil Plant
                                                              Tennessee Valley Authority - Office of the Inspector General
                                                            June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                 • Page 19

Plans were reviewed, which included the initial document and two subsequent updated versions
to account for changes in project conditions and scheduling.

       The Site Stormwater Management Plan/Stormwater Pollution Prevention Plan
documents describe and illustrate best management practices for storm water flow control and
ash movement/erosion control. The Stormwater Pollution Prevention Plans further describe the
routing and detention of storm water through basins and structures prior to discharge at NPDES
Outfall 001 (KIF 001), a primary NPDES compliance point for the KIF facility. KIF 001 is the
final point of discharge for water that conveys ash from plant operations as well as the current
(Phase 1) dredging operation. In addition to runoff control, the Stormwater Pollution Prevention
Plans present a control system to divert storm water run-on away from the ash management
areas. The documents present a schedule and inspection log forms necessary to regularly inspect
and document best management practices conditions and effectiveness.                              Marshall Miller
reviewed the available inspection logs and found them to be consistent with the requirements of
the Stormwater Pollution Prevention Plans.

       Major activity reports, weekly reports, storm water inspection forms and other project
work documentation indicate that the Site Stormwater Management Plan / Stormwater Pollution
Prevention Plan measures are being implemented, monitored, and maintained.                                  The Site
Stormwater Management Plan states that TVA initiated daily sampling of the NPDES permitted
outfall (KIF 001) in March 2009, and through June 2010, the TVA had collected daily samples
(seven days per week) for total suspended solids and total and dissolved metals five days per
week from the outfall that discharges into the KIF plant intake channel. Weekly reports confirm
the implementation of dust/erosion control measures, total suspended solids water quality
monitoring at KIF 001, and the construction of storm water control channels.

       The weekly reports through first quarter 2010 that were reviewed by Marshall Miller
suggest that the implemented storm water best management practices have minimized water
quality impacts at the KIF 001 outfall.       The reports either specifically identify low total
suspended solids concentrations for KIF 001 or generally state that fixed station total suspended
solids concentrations have consistently averaged less than 20 mg/l. The reported values are less
                                                 Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                              Kingston Fossil Plant
                                                                       Tennessee Valley Authority - Office of the Inspector General
                                                                     June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                          • Page 20

than the average monthly total suspended solids concentration limit of 29.9 mg/l that is
established for KIF 001 under NPDES Permit No. TNR0005452.

         In summary, the reviewed plans and supporting documentation suggest that TVA has
developed and implemented a program to minimize, control and monitor storm water flow within
the ash management areas so that the potential for ongoing ash/sediment movement to the river
system is minimized. The program appears to be in compliance with NPDES requirements for
storm water best management practices.

2.4.     SEDIMENT
         Marshall Miller examined the Standard Operating Procedures and ongoing field
procedures used in collecting sediment samples on the river bottom during a site visit conducted
on November 19, 2009. Initially, TVA’s sediment sampling program is focused primarily on
determining the extent and thickness of ash that escaped during the spill. It is also used to
monitor the potential spreading of the ash that might occur during the Phase I dredging activities
and from natural transport by river currents, particularly during flood events.

         Until October 2009, TVA’s sediment samples were collected exclusively using a
combination of gravity, Ponar and/or Ekman grab sampler devices, which collect the upper 5 to
10 centimeters of sediment from the river bottom. At the time of Marshall Miller’s review in the
first half of 2010, 91 samples had been analyzed for 23 metals, PCBs, chlordane, and cesium
137.    The results of these analyses indicated no reportable levels of chlordane and PCBs;
however, samples from the area near the ash slide (Emory River) showed levels of arsenic up to
150 mg/kg and selenium levels up to about 5-7 mg/kg, presumably reflecting the influence of
spill-related ash on sediments in that area. Although samples exhibiting these highest levels
exceed some published risk-based (EPA Region 9 Preliminary Remediation Goals) and effects-
based values (Sediment Quality Guidelines published by National Oceanic and Atmospheric
Administration (NOAA)), it is important to note that soil background levels for arsenic in
Tennessee soils were found to range between 0.1 and 120 mg/kg. 1                                  Moreover, the higher


1
    Association for the Environmental Health of Soils, Study of State Soil Arsenic Regulations, Amherst, Massachusetts,
    December 1, 1998.
                                          Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                       Kingston Fossil Plant
                                                                Tennessee Valley Authority - Office of the Inspector General
                                                              June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                   • Page 21

concentration samples at the KIF release were collected in close proximity to the spill within
several days of the event. At this time, there are no state or federal regulatory levels for arsenic,
only screening values.

       Pre-spill studies had determined that some of these constituents occurred at elevated
levels in the Clinch and Emory Rivers and are presumably related to upstream sources associated
with the US Department of Energy’s Oak Ridge National Laboratory (ORNL) sites. Moreover,
independent studies show that one of the metals of concern, arsenic, occurs naturally in soils
across the eastern United States including Eastern Tennessee, at levels in excess of those found
in most river sediments near the spill site. Distinguishing site-related, ash-bearing sediments
from antecedent impacted sediments is a key concern and as a result, EPA issued a memorandum
dated March 5, 2010, which indicated that because of the difficulty in removing ash without
disturbing native sediment when the ash thickness is less than one foot, some ash will remain in
the river. In late 2009, TVA extended its sediment sampling to penetrate greater thicknesses
using a commercially available VibraCore™, capable of recovering continuous core samples
from up to two meters below the river bottom. This deeper coring technique is being used in
combination with high-resolution sub-bottom (seismic) profiling to better define the distribution
and thickness of spill-related sediments as dredging progresses. This VibraCore™ method has
proven particularly useful in mapping ash thicknesses in areas close to the spill site where thicker
accumulations remain and for recovering deeper core samples from background and downstream
areas where ash-bearing sediments overlie or may be comingled with earlier deposits of
environmentally impacted sediments.

       Marshall Miller’s assessment is that the current sediment sampling methods are
appropriate for mapping the distribution of ash-bearing sediments on the river bottom.
Ultimately, these and earlier sampling methods should provide a solid basis for guiding dredging
and other clean-up activities as well as complimenting water quality and biological studies
directed at monitoring the long-term health of the river system.
                                          Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                       Kingston Fossil Plant
                                                                Tennessee Valley Authority - Office of the Inspector General
                                                              June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                   • Page 22


2.5.   GROUNDWATER
Prior groundwater monitoring has been conducted since June 2005 for the KIF facility’s solid
waste permit.    Baseline groundwater monitoring at the site extends back to at least 2003.
Unfiltered groundwater samples were previously collected semi-annually from four monitoring
wells associated with the ash dredge cell.         These particular samples were analyzed for 17
inorganics.   Results of arsenic in site groundwater samples collected prior to the ash release
indicate that six samples collected from monitoring well KIF-6A exceeded the current maximum
contaminant level of 10 micrograms per Liter (ug/L). However, five of those detections occurred
prior to November 2008 when the maximum contaminant level was lowered from 50 to 10 ug/L.

However, post-ash release sampling detected one occurrence of arsenic above the maximum
contaminant level in samples collected from the on-site monitoring wells.

       TVA’s data indicate that shallow groundwater discharges directly to the Emory River or
its tributaries and, consequently, does not recharge aquifers that are local sources of drinking
water. The regional groundwater regime is supported by numerous local springs and upward
hydraulic gradients detected in deeper wells.

       Private water supply wells were sampled by TVA, TDEC, and EPA immediately
following the release. It was jointly determined that it was more appropriate for TDEC to
continue monitoring and sampling of the private water supply wells. Subsequently, TDEC
continued collecting samples from private water wells within a 4-mile radius of the ash release.
TDEC’s Kingston Monthly Update dated October 16, 2009, reported that over 100 private water
wells have been tested, including metals analysis, and no exceedances of maximum contaminant
levels have been detected thus far. TVA’s preliminary conclusions are that the private water
supply wells identified near the spill site are situated upgradient from the release.

       Continued groundwater monitoring was proposed at the dredged ash processing area (ball
field area) in the Corrective Action Plan. One upgradient and two downgradient monitoring
wells were proposed with quarterly monitoring. The Corrective Action Plan also proposed
additional groundwater monitoring wells and sentinel wells for routine monitoring as early
                                         Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                      Kingston Fossil Plant
                                                               Tennessee Valley Authority - Office of the Inspector General
                                                             June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                  • Page 23

detection of ash chemical migration. Lastly, the Corrective Action Plan proposed the installation
of a network of background wells to characterize background water quality parameters and
observation wells in relevant aquifers to evaluate gradients.

       According to the TDEC Web site, TDEC initially tested over 100 private water wells
within a 4-mile radius of KIF. These results did not indicate exceedances of the primary
drinking water standards for metals. Through June 2010, TDEC conducted quarterly sampling
of an unspecified number of sentinel wells in the area.            The results were provided to the well
owners but were not provided to the public. According to the Corrective Action Plan, other
water wells and springs in the groundwater monitoring area are to be tested semi-annually. Tests
include field parameters and metals as well as boron and sulphate, which are mobile indicators of
ash leachate contamination. Data will be evaluated for (1) concentrations exceeding maximum
contaminant levels, (2) above-normal background range, and (3) increasing concentration trends.
The Corrective Action Plan evaluated alternate water supply options that included (1) connection
to the public water system, (2) use of bottled water, (3) well replacement, or (4) installation of
localized water treatment system.

       Future characterization of groundwater flow in the vicinity of the Dredge Cell is outlined
in the Non-Time Critical Removal Action for the River System Sampling and Analysis Plan (May
2010). The report outlines a proposed groundwater monitoring well network and the approach
for further hydrogeological characterization, including groundwater modelling for fate and
transportation of for ash-related constituents. Hydraulic conductivity testing, column leaching
tests, geochemical analysis of soils, and other methods are proposed to provide data to support
the modelling and future risk assessments.

       Marshall Miller’s opinion is that the overall approach/strategy appears to be sound
relative to groundwater quality evaluation and monitoring. The written plans are appropriate to
meet data quality objectives and regulatory requirements for continued groundwater monitoring.
Protection of groundwater and drinking water supplies appears to remain a priority to TVA and
the stakeholders. The Corrective Action Plan is a vital step to characterize groundwater
conditions and further evaluate risks to the surrounding community.
                                         Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                      Kingston Fossil Plant
                                                               Tennessee Valley Authority - Office of the Inspector General
                                                             June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                  • Page 24

       One limitation Marshall Miller experienced in reviewing groundwater concerns is the
difficulty of finding publically available data and detailed groundwater summaries on the TVA,
TDEC, or EPA Web sites. Data of surface water and public water supply intakes appear more
readily available. Since TDEC is leading the private water well sampling, Marshall Miller
reviewed its sampling plan (TVA Kingston Response and Monitoring Plan—Water Sampling
updated January 26, 2009) referenced on TDEC's Web site and found that it did not contain
detailed water well sampling protocols. In addition, TDEC’s plan stated that private water well
sampling will be performed upon request within a 4-mile radius but did not specify the level of
proactive effort to initiate/obtain these requests. The results of the sampling of private wells
(reportedly over 100 wells) by TDEC were only provided to the property owners. The TDEC
Web site indicates that there have been no exceedances of the primary drinking water standards
for metals.

2.6.   BIOLOGICAL
       TVA has implemented monitoring efforts to determine the biological impacts due to the
ash spill and recovery operations as well as any short- and long-term effects of these actions.
The ash spill covered approximately 300 acres of the adjacent Watts Bar Reservoir, including
most of the Swan Pond Embayment and reservoir shorelines. It is estimated that approximately
2.51 acres of palustrine wetlands were buried by the ash. The area in the Emory River where the
ash spilled was temporarily devoid of benthic life, as benthic invertebrates were smothered
during the ash spill. This void minimized the food available to aquatic life, impacting the aquatic
environment in the area. The presence of metal constituents in the ash and, if re-suspended, in
the water column may also have an effect on the aquatic environment.

       Prior to the ash spill, there were preexisting Fish Tissue Advisories in effect for portions
of the Emory, Clinch, and Tennessee Rivers within the Watts Bar Reservoir. These advisories
are based on the presence of sediments containing PCBs.

       Marshall Miller has reviewed several documents regarding biological plans and analysis
including, but not limited to, Emergency Dredging for the Kingston Fossil Plant Ash Dike
Failure, the Corrective Action Plan, Non-Time Critical Removal Action Scope and Engineering
                                          Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                       Kingston Fossil Plant
                                                                Tennessee Valley Authority - Office of the Inspector General
                                                              June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                   • Page 25

Evaluation/Cost Analysis (EE/CA) Work Plan, US Army Engineer Research and Development
Center report and Standard Operating Procedures. These documents were found to provide a
comprehensive scope of procedures and analysis related to biological studies.

        Tennessee Wildlife Resources Agency (TWRA) began collecting fish for tissue analysis
during the week of January 5, 2009. TWRA compared results from its sampling to existing
historical data and results of sampling of fish downstream of the spill to an upstream reference
site. TVA is collaborating with TWRA, TDEC and ORNL to examine contaminants in the fish
tissue. Of the sampling, only two catfish collected by TWRA from January to April 2009 were
found to have metals present above human health protection standards for mercury; selenium
levels in the fish were below EPA’s proposed toxicity standards for protection of fish and other
aquatic life. As of June 2010, fish tissue testing has not necessitated a change in the current fish
consumption advisories in the area, which pre-date and are unrelated to the ash spill.

        TVA has systematically monitored contaminants in fish tissue from four locations on the
Tennessee and Clinch Rivers on Watts Bar Reservoir annually since the early 1990s as part of
the Vital Signs Monitoring Program. TVA reportedly sampled these locations again in fall 2009
and 2010. ORNL is conducting fish health studies which include measurements that represent
short-term responses as well as intermediate- and long-term responses to assess effects as a result
of ash exposure. ORNL conducted analysis of fish tissue collected in spring 2009 and found, in
general, that fish health below the spill site was similar to a reference site well above the spill
site.

        TVA water sampling, as of February 23, 2009, indicated increased levels of metals in the
water after the event and subsequent heavy rainfall events. However, all metals concentrations,
even for total arsenic results, were below the chronic Tennessee Water Quality Criteria of 0.015
mg/L for dissolved arsenic (III) to protect fish and aquatic wildlife.

        The Revised Surface Water Monitoring Plan for the Emory, Clinch and Tennessee Rivers
includes collection of water samples from the dredge plume which are subjected to acute toxicity
testing. Acute toxicity test results showed no difference between controls and the samples.
                                         Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                      Kingston Fossil Plant
                                                               Tennessee Valley Authority - Office of the Inspector General
                                                             June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                  • Page 26

       The US Army Engineer Research and Development Center conducted a study to
determine whether continued clean-up of the ash by dredging in the Emory River would promote
the release of metals within the ash and pose additional risks to the environment. The report,
Evaluation of Metals Release of Oxidation of Fly Ash during Dredging of the Emory River, TN
dated October 9, 2009, indicated the ash material possesses high stability and is largely resistant
to high releases of toxic metals under extreme environmental testing. Of the metals released
from the ash during this study, only selenium exceeded EPA regulatory values. Metals released
from the ash were found mainly in their less toxic forms. The study provides the basis for
continued dredging of the Emory River for removal of the spilled ash.

       Biological surveys and samplings to date include reptiles, amphibians, fish, birds and
benthic invertebrates, mammals, and grasses. Analyses of tissue from reptiles and amphibians
have been reported, and additional sampling will continue next spring. Turtle trapping and
collection of blood samples is being conducted by TVA, TWRA, and Virginia Tech. The turtles
are marked for future sampling for bioaccumulation studies. Mammal trapping has been initiated
in collaboration with the University of Tennessee. The KIF site was known as a birding location
for shorebirds and waterfowl, and tissue sampling of birds has been conducted since the spill. As
of June 2010, TVA developed Standard Operating Procedures for biological sampling, and
monitoring of fauna and flora and were continuing to develop additional Standard Operating
Procedures as needed.

       Continuation of existing monitoring programs by TVA, TDEC and other agencies, in
addition to the existence of historical biological data and the initiation of a number of new
programs in response to the ash spill, should provide a comprehensive approach to assess the
impacts of the ash spill and provide guidance on the effectiveness of the recovery efforts.
                                       Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                                    Kingston Fossil Plant
                                                             Tennessee Valley Authority - Office of the Inspector General
                                                           June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                                • Page 27


Item 3:       CONCLUSIONS & RECOMMENDATIONS
       As of its review completed through June 2010, Marshall Miller finds no significant
deficiencies in the plans or procedures used by TVA or its contractors in characterizing impacts
resulting from the ash release or recovery efforts. Although the procedures used early in the
recovery process could not, in some cases, pass the rigorous QA/QC checks now in place, there
is no indication that decisions regarding clean-up were made using data of poor quality. Follow-
up planning documents prepared by TVA and its recovery contractors appear to be well
conceived and are substantially in compliance with applicable regulatory requirements including
those stated in EPA’s Administrative Order and Agreement on Consent.

       TVA should consider the following recommendations:

       •      TVA should ensure that Inter-Mountain Labs, the laboratory that is currently
              performing PM2.5 and PM10 air sampling and analyses, is reporting the correct
              analytical methods.

       •      Research related to the composition of ash and the potential release of metals
              from the ash into the surrounding river system, which could be bioavailable and
              have potential affects to organisms, should continue. As sampling to date has
              been limited, research on how the ash affects benthic organisms should also be
              continued. Marshall Miller notes that the EE/CA for the river system is expected
              to address this issue.

       •      TVA should consider making more comprehensive air testing results and
              evaluations of metals data available to the public.

       •      TVA should consider working with TDEC to provide the public with updated
              groundwater testing results and evaluations.

       •      TVA should complete ongoing research designed to understand how river bottom
              sediments play a role in the overall ecology of the river system by propagating
              potential spill impacts through the food chain including fish, reptiles, mammals,
              birds and other biota over the long term. It is Marshall Miller’s understanding
              that this research is ongoing through a collaborative effort between TVA and
              various research organizations.

       •      TVA should continue to monitor for the four principal ash components of concern
              (arsenic, mercury, selenium, and thallium). With respect to selenium, TVA
              should continue to follow the guidance of the EPA as outlined in the August 18,
                       Review of the Environmental Sampling and Monitoring Plans for Kingston Ash Spill
                                                                                    Kingston Fossil Plant
                                             Tennessee Valley Authority - Office of the Inspector General
                                           June 30, 2011 • Prepared by Marshall Miller & Associates, Inc.
                                                                                                • Page 28

2009, Review of Potential Selenium Issues Following a Coal Ash Spill at the
Tennessee Valley Authority Kingston Fossil Plant.
Appendix A
Appendix A
Appendix A
Appendix A
Appendix A
Appendix A
Appendix A
Appendix A
Appendix A
Appendix A
Appendix B
                                                                                                            Appendix C
          Lenexa, KS • (913) 648-4424                                                         Kingsport, TN • (423) 279-9775
         Lexington, KY • (859) 263-2855                                                        Ashland, VA • (804) 798-6525
        Bossier City, LA • (318) 747-7734                                                     Bluefield, VA • (276) 322-5467
          Raleigh, NC • (919) 786-1414                                                        Beckley, WV • (304) 255-8937
         Camp Hill, PA • (717) 730-7810                                                      Charleston, WV • (304) 344-3970

                                                      www.mma1.com

       5900 Triangle Drive / Raleigh, NC 27617 / Tel (919) 786-1414 / Fax (919) 786-1418 / Email raleigh@mma1.com


      June 30, 2011



      Mr. Greg Stinson
      Tennessee Valley Authority, Office of Inspector General
      400 West Summit Hill Drive, ET 3C
      Knoxville, Tennessee 37902-1401

      Re:       Response to Comments
                Review of Environmental Sampling and Monitoring Plans for the Kingston Ash Spill
                Kingston Fossil Plant  Harriman, Tennessee

      Dear Greg:

      Marshall Miller & Associates, Inc. (MM&A) has reviewed the comments submitted by
      Tennessee Valley Authority (TVA) in their letters dated March 3, 2011 and June 27, 2011.
      These comments were submitted in response to TVA’s review of the above-mentioned report.
      Following is MM&A’s response to those comments. Comments were provided to address
      MM&A’s recommendations and in four additional categories. MM&A’s responses are provided
      by comment category and number rather than repeating each comment in its entirety. Responses
      were included only when additional information was needed.

      Response to Recommendations

      MM&A agrees that TVA is addressing the recommendations. However, in the response to
      recommendations #2 and #5, TVA notes that the research to complete the River EE/CA is still
      ongoing. This report should be reviewed in detail once it is available. Additionally, in the
      response to recommendations #3 and #4, TVA notes that they are taking steps to address the
      availability of air and groundwater monitoring data to the public. It doesn’t appear that this has
      been completed as of yet.


      General Comments

            1. While the Executive Summary does indicate that MM&A’s review only included those
               documents available thru June 2010, this section and the Introduction and Background
               have been modified to clarify the timeframe in which the review occurred.




         ENERGY & MINERAL RESOURCES • CIVIL & STRUCTURAL ENGINEERING • ENVIRONMENTAL SCIENCES • HYDROGEOLOGY & GEOLOGY
INVESTIGATIVE ENGINEERING• EXPERT WITNESS TESTIMONY • MINING ENGINEERING • GEOPHYSICAL LOGGING SERVICES• PETROLEUM ENGINEERING
                                                                                         Appendix C
                                                                                       Mr. Greg Stinson
                                               Tennessee Valley Authority, Office of Inspector General
                                                                                          June 30, 2011
                                                                                            Page 2 of 3

   2. In some cases, analytical data may not have been available for review due to the time
      required for the validation process. In other areas, data may have been available, but in
      various locations. For instances, for air quality data, the TVA website contained the
      PM2.5, PM10, and arsenic data, while the TDEC website contained a more extensive data
      including all the metals. Groundwater data was not and still is not available.

   3. Portions of the Groundwater section of the report have been revised in response to this
      comment.

   4. Portions of the Groundwater section of the report have been revised in response to this
      comment.


Corrections of Factual Errors

   6. Additional comments have been included indicating that a review of a recently obtained
      document (January 5, 2010 memorandum) indicates that Bureau Veritas reported a
      problem to TVA on December 7, 2009 and that TVA and Environmental Standards
      personnel conducted an audit on December 15, 2009.

   8. A review of the EQUIS database indicates that Bureau Veritas analyzed samples for
      metals until March 2010, at which time Inter-Mountain Laboratories assumed
      responsibility. Galson Laboratories had maintained responsibility for silica analysis since
      December 2008. The text has been revised accordingly.

   9. According to information provided by TVA, 6 samples from monitoring well KIF-6A
      exceeded 10 ug/L, the current MCL for arsenic. However, 5 of those detections occurred
      prior to January 2006 when the MCL was lowered from 50 to 10 ug/L. The text has been
      revised to reflect this information.

   10. TVA states that the only post-ash release arsenic exceedances of the MCL occurred in
       monitoring well AD-2 and the detections were determined to be an artifact of well
       installation. No documentation has been provided to support this statement. The EE/CA
       (October 16, 2009) notes that arsenic was detected in one of the wells at 14 ug/L. The
       graph of arsenic concentration over time provided by TVA seems to indicate that the
       arsenic concentration in KIF-6A exceeded the MCL immediately following the spill.
       Though due to the scale of the graph, it is difficult to determine the exact date the sample
       was collected.

   11. Agree with this comment. This portion of the report had been written prior to review of
       the EE/CA report. The paragraph has been deleted.

   12. Technically the sentence in the report is correct. While TVA had developed a number of
       SOPs for biological sampling prior to June 2010, TVA issued at least 5 SOPs after June.
       TVA provided a URL link to the available SOPs in their response. However, I was
                                                                                         Appendix C
                                                                                       Mr. Greg Stinson
                                               Tennessee Valley Authority, Office of Inspector General
                                                                                          June 30, 2011
                                                                                            Page 3 of 3

         unable to determine how to access that link from the TVA home page. Without the link
         provided in TVA’s response, I would not have been able to access this page.

Suggested minor wording changes & typographical errors

      5. Agree with proposed revision. Only two references to Vibracorer were identified
         however, not four as stated in the comments.

MM&A appreciates the opportunity to provide these services to TVA OIG. If there are any
questions, or if we can be of further assistance, please do not hesitate to contact us.

Sincerely,

MARSHALL MILLER & ASSOCIATES, INC.




Timothy D. Grant, P.G.
Senior Project Manager



cc:      Mr. Ben R. Wagner, Deputy Inspector General, TVA OIG
         Mr. Robert E. Martin, Assistant Inspector General (Audits & Inspections), TVA OIG
